No. _____
IN THE SUPREME COURT OF THE UNITED STATES
ISRAEL ERNESTO PALACIOS
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Mr. Israel Ernesto Palacios asks leave to proceed in forma pauperis in this
case. Mr. Palacios proceeded in forma pauperis in the Court of Appeals for the Fourth
Circuit and the District Court for the District of Maryland. The Court of Appeals for
the Fourth Circuit appointed the undersigned counsel to represent Mr. Palacios
under the Criminal Justice Act, 18 U.S.C. § 3006A. A letter confirming counsel’s
appointment is attached. Therefore, no affidavit or declaration is required per
Supreme Court Rule 39(1) and 18 U.S.C. § 3006A(d)(7).
Respectfully submitted,

March 4, 2021

Thomas V. Burch
Counsel of Record for Petitioner
University of Georgia School of Law
Appellate Litigation Clinic
225 Herty Drive, Athens, GA 30602
(706) 542-5236
tvburch@uga.edu

OFFICE OF STAFF COUNSEL

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
______

MELISSA L. WOOD
SENIOR STAFF COUNSEL

1100 EAST MAIN STREET, SUITE 325
RICHMOND, VIRGINIA 23219-3538

TEL. (804) 916-2900
FAX (804) 916-2920

August 22, 2019
Thomas Burch
University of Georgia School of Law
Appellate Clinic
225 Herty Drive
Athens, GA 30602
Re:

No. 18-6067 United States v. Palacios

Dear Professor Burch:
Thank you for agreeing to be appointed as counsel on behalf of the appellant in
this appeal.
The issue as to which a certificate of appealability has been granted is:
POSTCONVICTION: Whether Palacios’s counsel was
ineffective for failing to assert a double jeopardy defense
to his conviction under 18 U.S.C. § 924(c), which is an
element of 18 U.S.C. § 924(j).
Should you conclude that any other issue or issues would benefit from briefing and
oral argument, you may move to expand the certificate of appealability pursuant to
Fourth Circuit Local Rule 22.
Because this appointment is made pursuant to the Criminal Justice Act, the
maximum authorized compensation is $8200 plus expenses. An hourly rate of $148
applies to both in-court and out-of-court work. Any compensation issues should be
addressed to Deputy Clerk Patty Layne at (804) 916-2700.
The case manager assigned to this appeal, Cyndi Halupa, will assist you with any
procedural inquiries; she also can be reached at (804) 916-2700. Please contact me at
(804) 916-2900 for any other assistance.

Professor Thomas Burch
August 22, 2019
Page 2
You will be notified as to the briefing schedule promptly after it is established by
the Clerk’s Office. The electronic record on appeal is available on PACER. Your
appointment to this case as a member of this Court’s Discretionary Panel authorizes you
to obtain and use a fee exempt CJA Panel Attorney account to provide representation in
this case.
We appreciate your assistance to the Court in accepting this appointment.
Very truly yours,

Melissa L. Wood
Senior Staff Counsel
MLW/ksy
cc:

Israel Ernesto Palacios
Laura Jean Gwinn, Esq.
William Moomau, Esq.
John Alexander Romano, Esq.

Jennifer Regina Sykes, Esq.
James Marton Trusty, Esq.
Michael Stephen Warbel, Esq.

